Department of Homeland Security
   Ofﬁce of Inspector General


                 Internal Controls in the 

            FEMA Disaster Acquisition Process 





OIG-09-32                                     February 2009
                                                                     Office of Inspector General

                                                                     U.S. Department of Homeland Security
                                                                     Washington, DC 25028




                                     February 19, 2009


                                           Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to
the Inspector General Act of 1978. This is one of a series of audit, inspection, and special
reports prepared as part of our oversight responsibilities to promote economy, efficiency,
and effectiveness within the department.

This report presents the results of the audit of the Federal Emergency Management
Agency’s internal controls governing disaster acquisitions. We contracted with the
independent public accounting firm of Urbach Kahn & Werlin LLP (UKW) to perform the
audit. The contract required that UKW perform its audit according to generally accepted
government auditing standards. UKW identified six areas where internal controls could be
strengthened.

UKW is responsible for the attached report dated January 28, 2009, and the conclusions
expressed in the report.

The recommendations herein have been developed to the best knowledge available to our
contractor and have been discussed in draft with those responsible for implementation. We
trust that this report will result in more effective, efficient, and economical operations. We
express our appreciation to all who contributed to the preparation of this report.




                                              Richard L. Skinner 

                                              Inspector General 

                                     January 28, 2009



Mr. Matt Jadacki
Deputy Inspector General for Office of Emergency Management Oversight
Office of Inspector General
Department of Homeland Security
245 Murray Drive, Building 410
Washington, DC 20528


Dear Mr. Jadacki:


Urbach Kahn and Werlin performed an audit of internal controls over the Federal
Emergency Management Agency disaster acquisition process. The audit objective was to
determine the extent that internal controls over the disaster acquisition process have
improved since the 2005 Gulf Coast hurricanes and to identify weaknesses that remain.
This report presents the results of the audit and includes recommendations the agency can
implement to enhance the acquisition program’s overall success. We performed the audit
as stipulated in Task Order TPDFIGBPA070009A-0071.

We appreciate the opportunity to have conducted the audit. Should you have any
questions, or if we can be of any further assistance, please call me at (571) 227-9500.



                                                         Sincerely,



                                                         Roger Von Elm, CPA, CGFM
                                                         Partner
Table of Contents/Abbreviations 


Executive Summary .........................................................................................................................1


Background ......................................................................................................................................2


Results of Audit ...............................................................................................................................3

   Improving FEMA Internal Controls ..........................................................................................3 

   Recommendation .......................................................................................................................5

   Management Comments and Contractor Analysis ....................................................................5 


     Strengthening Contract Files Oversight.....................................................................................6 

     Recommendations......................................................................................................................9

     Management Comments and Contractor Analysis ....................................................................9 


     Improving Performance Management of Contracting Officers .................................................9 

     Recommendation .....................................................................................................................11

     Management Comments and Contractor Analysis ..................................................................11 


     Improving COTR Performance Feedback ...............................................................................11 

     Recommendation .....................................................................................................................12

     Management Comments and Contractor Analysis ..................................................................12 


     Enhancing Oversight of Recommended Corrective Actions ...................................................13 

     Recommendation .....................................................................................................................13

     Management Comments and Contractor Analysis ..................................................................13 


     Improving Contract Closeout Timeliness ................................................................................14 

     Recommendations....................................................................................................................14

     Management Comments and Contractor Analysis ..................................................................15 



Appendices
     Appendix A:            Purpose, Scope, and Methodology...................................................................16 

     Appendix B:            Management Comments to the Draft Report ...................................................17 

     Appendix C:            FEMA Acquisition Management Division Organization Chart ......................18 

     Appendix D:            Report Distribution ..........................................................................................19 

Table of Contents/Abbreviations 


Abbreviations
  CO            Contracting Officer
  COTR          Contracting Officer’s Technical Representative
  DHS           Department of Homeland Security
  FAR           Federal Acquisition Regulation
  FEMA          Federal Emergency Management Agency
  FMFIA         Federal Managers’ Financial Integrity Act of 1982
  FY            Fiscal Year
  GAO           Government Accountability Office
  IMAT          Incident Management Assistance Team
  OAM           FEMA Office of Acquisition Management
  OMB           Office of Management and Budget
  OIG           Office of Inspector General
  UKW           Urbach Kahn & Werlin LLP
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                Urbach Kahn & Werlin LLP audited the Federal Emergency
                Management Agency’s (FEMA) acquisition process to determine the
                extent to which internal controls have improved since the 2005 Gulf
                Coast hurricanes and to identify weaknesses that remain. FEMA has
                begun to establish a control environment over the disaster acquisition
                process. However, additional safeguards to protect assets and prevent
                and detect errors should be implemented. FEMA should:

                   �	 Establish an internal control board and assess the adequacy of its
                      internal controls annually;

                   �	 Hold contracting officers accountable for their contract file
                      maintenance responsibilities;

                   �	 Implement departmental policy requiring that contracting
                      officers report to contracting professionals for technical
                      performance elements;

                   �	 Hold contracting officer’s technical representatives accountable
                      for their delegated contract management tasks in performance
                      evaluations;

                   �	 Determine what audit findings and recommendations the Office
                      of Acquisition Management is responsible for and ensure that
                      corrective action is taken; and

                   �	 Comply with Federal Acquisition Regulation on contract close
                      out, so that unused funds can be spent to address future needs.

                FEMA concurred with the recommendations and has begun to address
                some of the weaknesses identified in the report.




                    Internal Controls in the FEMA Disaster Acquisition Process

                                         Page 1
Background
                          Federal program managers are continually seeking ways to better
                          achieve agencies’ missions and program results. A key factor in
                          helping achieve such outcomes is to implement appropriate internal
                          controls. Internal controls comprise the plans, methods, and
                          procedures that an agency uses to meet missions, goals, and
                          objectives, and in doing so (1) support performance-based
                          management and (2) help prevent fraud, waste, and abuse.


                                                      Internal Controls
                                    An integral component of an organization’s
                                    management that provides reasonable assurance that
                                    the following objectives are being achieved:
                                    � Effectiveness and efficiency of operations,
                                    � Reliability of financial reporting, and
                                    � Compliance with applicable laws and regulations.

                                    Standards for Internal Control in the Federal Government
                                    (GAO/AIMD-00-21.3.1, November 1999)



                          Internal controls, along with monitoring controls to determine their
                          effectiveness, help screen out fraud and are the most effective and
                          efficient means to do so. Figure 1, below, illustrates the important
                          role internal controls play in fraud prevention.

                        Figure 1: Using Internal Controls to Prevent Fraud




                        Source: UKW, from a U.S. Government Accountability Office figure1




1
    INDIVIDUAL DISASTER ASSISTANCE PROGRAMS: Framework for Fraud Prevention, Detection, and
Prosecution, (GAO-06-954T, July 2006).

                             Internal Controls in the FEMA Disaster Acquisition Process

                                                    Page 2
                      As programs change and agencies strive to improve operational
                      processes, they must continually assess and update internal controls as
                      necessary to ensure effectiveness. For example, in response to lessons
                      learned from the 2005 Gulf Coast hurricanes, FEMA has:

                            �	 Restructured the Chief Procurement Office;

                            �	 Created the Office of Acquisition Management (OAM);2

                            �	 Increased the number of prepositioned contracts to support
                               disaster response activities;

                            �	 Established a contracting officer’s technical representative
                               (COTR) training program;

                            �	 Developed a strategy map and scorecard to guide its internal
                               operations; and

                            �	 Identified initiatives for strengthening the internal controls of
                               acquisition operations.


                        However, much work remains to be done. FEMA has yet to
                        implement hundreds of recommendations that would result in more
                        effective, efficient, and economical operations.3 Government
                        internal control standards,4 which define the minimum level of
                        acceptable quality for internal controls, prescribe that internal control
                        monitoring should ensure that audit findings are promptly resolved.



Results of Audit
        Improving FEMA Internal Controls
                In fiscal year (FY) 2007, FEMA could not provide reasonable assurance of
                the effectiveness of its internal controls. FEMA has yet to implement the
                Federal Managers’ Financial Integrity Act of 1982 (FMFIA) and a number
                of key corrective actions. Additionally, FEMA does not yet have formal
                processes in place to provide oversight of internal control improvements,

2
  In January 2009, OAM was renamed the Acquisition Management Division as part of a FEMA Management 

Directorate realignment. See Appendix C for updated organization chart.

3
  Status Report on Open Recommendations to DHS Components (OIG-08-27, February 2008). 

4
  Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1, November 1999). 


                           Internal Controls in the FEMA Disaster Acquisition Process

                                                Page 3
including a FEMA-wide accountability structure for monitoring ongoing
internal control activities.

Office of Management and Budget (OMB) Circular A-123 and the statute it
implements, FMFIA, are at the heart of federal requirements to improve
internal controls. The circular defines
management’s responsibility for internal
controls and provides guidance on              What is “TONE AT THE TOP?”
                                               “Tone at the Top” refers to the
improving the accountability and               ethical atmosphere created in the
effectiveness of operations by                 workplace by the organization’s
establishing, assessing, correcting, and       leadership. Employees pay close
reporting on internal controls.                attention to the behavior and
Management is responsible for setting          actions of their bosses, and they
                                               follow their lead. In short,
the “Tone at the Top,” or the ethical          employees will do what they
atmosphere created in the workplace.           witness their bosses doing.
By not implementing FMFIA and not
taking timely corrective actions,              Association of Certified Fraud Examiners

FEMA’s management has not set the
“Tone at the Top” that is critical to strong internal controls.

FMFIA requires managers to examine internal controls annually to
determine how well they are performing, how they may be improved, and
the degree to which they help identify and address major risks for fraud,
waste, abuse, and mismanagement. FEMA has not assessed internal
controls annually, nor has it established an internal control review board to
formally oversee internal control improvements. OMB Circular A-123
requires agencies to integrate internal controls into their systems to direct
and guide operations and encourages agencies to establish a senior
management council or internal control board to address management
accountability and related issues within the broader context of agency
operations.

FEMA offices, including OAM, have not performed required internal
control reviews. The Acting Chief Financial Officer said, “We are not as far
along as we need to be” with implementing Circular A-123. Office of the
Chief Financial Officer officials said that key staff vacancies and the
catastrophic nature of the 2005 hurricane season caused delays in
implementing the circular. FEMA has written a draft internal control board
charter, but as of September 2008, it had not approved the charter or
established the board.




            Internal Controls in the FEMA Disaster Acquisition Process

                                 Page 4
The draft internal control board charter shows the Chief Financial Officer as
the council chair. To demonstrate management’s commitment to support a
healthy internal control
environment and to bring
appropriate focus to the            Senior Management Council Chair
                                    To ensure senior management
crosscutting issues affecting       involvement, many agencies have created
not only OAM, but also all of       their own senior management council,
FEMA, the internal control          often chaired by the agency’s lead
board should be chaired by the      management official, to address
FEMA Administrator or               management accountability and related
                                    issues in the broader context of agency
Deputy Administrator. Having        operations.
the chair at a higher level
would demonstrate                   OMB Circular A-123
management’s commitment to
a strong control system. It would also focus attention on acquisition process
improvement initiatives that contribute to the Administrator’s inability to
provide a positive assurance statement on FEMA internal controls.


Recommendation:
       We recommend that the Administrator, Federal Emergency
       Management Agency

       Recommendation #1: Implement the requirements of the Federal
       Managers’ Financial Integrity Act at the office and branch level in
       FEMA and establish an internal control board chaired by either the
       FEMA Administrator or Deputy Administrator.


Management Comments and Contractor Analysis
     FEMA concurred with the recommendation and said that it would
     provide a detailed corrective action plan in its 90-day response. We
     consider FEMA’s planned action responsive to the recommendation.




          Internal Controls in the FEMA Disaster Acquisition Process

                               Page 5
Strengthening Contract Files Oversight
     The contract file is the record
     of what the government                       Effective Internal Controls
     bought, how they bought it,       Ensure all transactions and other significant
     and how the contractor            events are authorized, approved, and clearly
     performed. OAM does not           documented, and the documentation is readily
                                       available for examination.
     routinely monitor contracting
     officers’ (CO) compliance         Standards for Internal Control in the Federal Government
     with contract file policies and (GAO-AIMD-00-21.3.1, November 1999)
     procedures, organization and
     maintenance regulations, and contract closeout requirements. FEMA could
     not locate 27% of the contract files requested for review. Many contract
     files are not organized and are missing key information.

     Federal Acquisition
     Regulation (FAR)                    Contract File Documentation Should –
     Subpart 4.8 contains the      �	 Provide a complete background to inform
     requirements for                   decisions at each step of the acquisition process
                                   �	 Support actions taken
     establishing, maintaining,
                                   �	 Provide information for reviews and
     and disposing of contract          investigations
     files. It requires that       �	 Furnish essential facts in the event of litigation
     contract file                      or congressional inquiries.
     documentation be
                                   Federal Acquisition Regulation
     sufficient to constitute a
     complete history of the
     acquisition. FAR Subparts 4.802 and 4.803 describe types of contract files
     and examples of records that they should contain, the contract file
     organization requirements, and maintenance and closeout guidance.
     Contract files should contain items such as the following:

         �	 Purchase request, acquisition planning, and other presolicitation
            requirements;

         �	 Justifications and approvals;

         �	 Evidence of the availability of funds;

         �	 Cost/price proposals;

         �	 Basis for the acquisition and the award;




                 Internal Controls in the FEMA Disaster Acquisition Process

                                      Page 6
         �	 Assignment of contract responsibilities, including payment 

            responsibilities;


         �	 Independent government cost estimates; and

         �	 CO’s determination of the contractor’s responsibility.

COs could not find many of the contract files we requested. Figure 2 shows
that COs could not locate 32 of the 120 contract files we requested (27 %).
Headquarters’ COs could not find 16 of 24 files (67%). Regional and
disaster field office COs could not find 16 of 96 files (17%). In some
instances, COs did not provide files until months after they were requested,
or COs provided files that they created to respond to our request.

Figure 2: UKW Contract Files Requested and Received from FEMA


                              140
   Number of Contract Files




                              120
                              100
                                                                                                 Files requested
                              80
                                                                                                 Files received
                              60
                                                                                                 Files not received
                              40
                              20
                               0
                                     Headquarters           Field              Total


Source: UKW


OAM did not have a standardized approach to documentation and file
maintenance. COs had access to acquisition file checklists designed for
various contract types and situations. These checklists appeared to be in line
with FAR requirements and showed what items to include in the contract
file. However, COs were not required to use the checklists, and we did not
find them in most of the files we reviewed. Basic documents were missing
from the files, and many existing documents did not contain authorizing
signatures. The missing or unsigned documents included contracts, COTR
designation letters, FEMA Form 40-1 “Requisition and Commitment for
Services and Supplies,” and FEMA Form 60-1 “Requisition for Supplies,
Equipment and/or Services.”

Supervisors did not hold COs accountable for maintaining complete,
organized files, and OAM did not monitor file contents to ensure that they
were complete and organized. The condition of contract files appeared to
relate directly to the responsible CO’s diligence in file maintenance.


                                    Internal Controls in the FEMA Disaster Acquisition Process

                                                         Page 7
At one office, the CO was adamant about the files leaving “a footprint” so
that anyone could pick up a contract file and know the history of the
contract. This CO used the FEMA acquisition file checklist (FEMA
Form 40-13) for every file created in the region and in the disaster response
field office the CO supported. However, the CO and other FEMA officials
told us the checklist had been rescinded from FEMA procedures.

At OAM headquarters, COs found 8 of 24 contract files (33%) we
requested. The 8 contract files were not consistent in content or structure.
COs included an acquisition file checklist in only two files. Documentation
was missing from most of the headquarters contract files.

Contracting staff turnover contributed to and exacerbated file maintenance
issues. Frequently, contract files were transferred as a result of personnel
changes and if the file was not in order at this point, it was difficult if not
impossible for the newly assigned CO to put the file in order.

When contract files are disorganized and incomplete, particularly when COs
change, the incoming CO has no way of knowing what has been done up to
the point when the file was passed on. Also, not monitoring a CO’s
adherence to contract file organization and maintenance requirements
exposes FEMA to fraud, waste, and abuse. It is difficult, if not impossible,
to establish what the contract was for, if appropriate contracting competition
rules were followed, if the government received a fair price, and if the goods
or services were properly delivered and paid for.

In September
2008, the OAM                Recent FEMA Standard Operating Procedures
Director issued       �	 “Labeling and Organizing Official Contract File Folders”
two standard          �	 “Transfer of Contract Files from the Joint Field Office to
operating                  the Appropriate Regional Office”
procedures that
                      FEMA Office of Acquisition Management
address aspects
of the contract files management problems. The procedures require FEMA
COs and contract specialists to create and maintain contract file folders as
required by the FAR, and to retain files in a central file location during
periods of inactivity and when completed. The procedures require COs at
disaster field offices to transfer files, which include a complete acquisition
history, prior to leaving the field office.

Both procedures include checklists that reference FAR requirements and
require contracting staff to identify specific document locations. The
checklists could serve as a mechanism to hold contracting staff accountable
for their file management responsibilities. With modification, the
procedures for transferring files from disaster field offices could be

           Internal Controls in the FEMA Disaster Acquisition Process

                                Page 8
     expanded to include all instances when a contract file is transferred from
     one CO to another. For additional information on acquisition policies and
     procedures and acquisition workforce issues, see Challenges Facing
     FEMA’s Acquisition Workforce, OIG-09-11, November 2008.


     Recommendations:
            We recommend that the Director, Office of Acquisition
            Management:

            Recommendation #2: Require that all files transferred from one
            contracting officer to another contracting officer meet criteria
            consistent with policy included in the standard operating procedure
            on joint field office file transfer.

            Recommendation #3: Require supervisors to monitor contract file
            maintenance and hold contracting officers and contracting specialists
            accountable by including, in the annual performance evaluation
            process, an assessment of their contract file maintenance activities.


     Management Comments and Contractor Analysis
            FEMA concurred with the recommendations and said that it would provide
            a detailed corrective action plan in its 90-day response. We consider
            FEMA’s planned action responsive to the recommendations.


Improving Performance Management of Contracting Officers
     COs who work in regions or in disaster
     operations field offices commonly                      GS-1102 Rating Official
     report to and receive performance                The Head of Contracting Activity
     appraisals from supervisors who are              shall ensure that all GS-1102s in
     not certified contracting professionals.         their organizational element have a
     This is contrary to DHS policy, and              certified GS-1102 contracting
                                                      professional designated as the rating
     because the rating official is frequently        official of record for GS-1102
     a manager reporting to superiors who             technical performance factors.
     have program delivery responsibilities,
     it creates a potential conflict-of­              DHS Management Directive # 0781.1

     interest situation for the CO.




                Internal Controls in the FEMA Disaster Acquisition Process

                                     Page 9
Internal control standards indicate that key duties and responsibilities need
to be divided or segregated among different people to reduce the risk of
error or fraud, and that transactions should be authorized and executed only
by persons acting within the scope of their authority. DHS MD 0781.1,
Contracting Professional
(GS-1102) Career
Information, requires that                            Conflict of Interest
                                   Any relationship that is or appears to be not in
certified contracting              the best interest of the organization…a conflict
professionals evaluate the         of interest would prejudice an individual's
technical performance of all       ability to perform his or her duties and
contracting professionals.         responsibilities objectively.
FEMA has not consistently          Institute of Internal Auditors
implemented MD 0781.1
requirements.

OAM officials said that they provide technical assistance and guidance to
regional and disaster response field office contracting staff, but that the
CO’s supervisor, usually a Finance/Administration Section manager,
evaluates the CO’s performance for all performance factors. In essence, the
CO’s performance evaluation is provided by the “customer,” which may
potentially affect the CO’s independence.

In 2007, the Director of OAM discussed changing regional CO reporting
responsibilities with regional managers. Regional managers opposed the
change.

One regional CO reporting to regional program managers said that although
he had never been forced to take actions that he did not feel comfortable
with, sometimes the bosses did not like the decisions the CO had to make
and did not like it when he called OAM for technical assistance.

During FY 2007, FEMA began to assemble new national and regional
response teams, called Incident Management Assistance Teams (IMATs), to
ensure FEMA’s capability to immediately deploy qualified and experienced
personnel and capabilities in support of any disaster incident response.
FEMA’s IMAT concept of operations places the teams in the FEMA
Disaster Operations Directorate. Some teams will include a full-time CO
with a reporting chain similar to regional and disaster field office COs.

COs are responsible for ensuring that acquisitions take place according to
federal contracting rules. Having a CO’s technical performance and career
advancement controlled by the customer or a supervisor who is not a
certified contracting professional increases the risk of fraud, waste, abuse,
and mismanagement in the FEMA disaster acquisition process.


           Internal Controls in the FEMA Disaster Acquisition Process

                               Page 10
     Recommendation:
             We recommend that the Director, Office of Acquisition
             Management:

             Recommendation #4: Implement policy in compliance with
             Department of Homeland Security Management Directive #0781.1
             and require that all contracting officers have a certified contracting
             professional as their rating official of record for technical
             performance factors. Contracting officers should report to
             headquarters Office of Acquisition Management.


     Management Comments and Contractor Analysis
             FEMA concurred with the recommendation and said that it would provide
             a detailed corrective action plan in its 90-day response. We consider
             FEMA’s planned action responsive to the recommendation.


Improving COTR Performance Feedback
     FEMA COTRs serve an important,
     clearly defined role in the               Common COTR Responsibilities
     acquisition process. In November      �	 Monitor contractor’s performance
     2007, the OAM Director issued         �	 Maintain a file documenting COTR
     policy that established COTR              actions
     responsibilities and requirements.    �	 Communicate with contractor regarding
     According to the policy, the              performance
                                           �	 Alert CO to contractor deficiencies
     program office recommends a           �	 Review and approve invoices
     COTR for the contract, and the CO
     appoints the COTR and establishes     FEMA Office of Acquisition Management Policy
     COTR expectations in writing.
     The appointment letter lists the COTR’s duties and responsibilities.

     COTRs perform their technical acquisition functions under the CO’s
     direction, but the FEMA performance management system does not hold
     them accountable for their COTR duties. COTRs frequently work for the
     program office that requested the contract and report to a program office
     supervisor. Often, the COTR function is a collateral duty, and the CO does
     not rate the COTR’s contract management performance.




                Internal Controls in the FEMA Disaster Acquisition Process

                                    Page 11
Human capital permeates virtually every effort within an agency, including
successfully acquiring goods and services, and executing and monitoring
contracts. Human capital policies and practices, a critical factor in the
control environment, should include a performance management system that
provides candid and constructive feedback to help people understand their
contributions and help the organization achieve its goals.

With no formal process in place for the CO to provide performance
feedback to the COTR’s supervisor, the COTR’s evaluation may not reflect
contract technical oversight responsibilities. The COTR is not ensured
credit for contract oversight accomplishments or counseling to address
performance deficiencies. This could reduce the effectiveness and
consistency of both the contracting and the evaluation process. OAM said
that DHS has considered creating a policy to require the COTR’s supervisor
to include the CO’s performance feedback in the COTR’s annual appraisal.


Recommendation:
       We recommend that the Administrator, Federal Emergency
       Management Agency:

       Recommendation #5: Revise the performance management process
       so that the supervisor of record includes the contracting officer’s
       written assessment of the contracting officer’s technical
       representative’s contract management performance in the annual
       performance appraisal. The assessment should address factors listed
       in the designation letter.


Management Comments and Contractor Analysis
       FEMA concurred with the recommendation and said it would provide a
       detailed corrective action plan in its 90-day response. We consider
       FEMA’s planned action responsive to the recommendation.




          Internal Controls in the FEMA Disaster Acquisition Process

                              Page 12
Enhancing Oversight of Recommended Corrective Actions
     FEMA and OAM do not
     effectively track audit
                                             Tracking Audit Recommendations
     findings and                        Audit follow-up is an integral part of good
     recommendations, and do not         management, and is a shared responsibility of
     have an accurate report on          agency management officials and auditors.
     the status of corrective
                                         OMB Circular A-50 Revised
     actions relative to those audit
     recommendations. These weaknesses exist because FEMA does not place
     sufficient emphasis on effectively tracking audit results. Consequently,
     there is increased risk of inefficient and ineffective operations, and
     management is not able to provide assurance that issues reported in audits
     are addressed.

     FEMA maintains corrective action plans in separate audit files, but does not
     have an effective automated tracking system to monitor its response to
     GAO, OIG, and other internal studies and evaluations. FEMA uses a
     “spreadsheet approach,” which relies on manual input as new audit
     recommendations are issued or changes in the status of corrective actions
     occur.

     FEMA is developing an automated tracking system. We reviewed
     information from the new system on OAM audit recommendations and
     found it to be incomplete and unreliable. OAM does not have a current or
     accurate list of audit recommendations for which it is responsible. Without
     a current, accurate inventory of open recommendations, OAM may not take
     recommended corrective actions to improve the acquisition process.


     Recommendation:
             We recommend that the Director, Office of Acquisition
             Management:

             Recommendation #6: Determine what audit findings and
             recommendations the Office of Acquisition Management is
             responsible for and ensure that corrective action is taken.


     Management Comments and Contractor Analysis
             FEMA concurred with the recommendation and said that it would provide
             a detailed corrective action plan in its 90-day response. We consider
             FEMA’s planned action responsive to the recommendation.
                Internal Controls in the FEMA Disaster Acquisition Process

                                    Page 13
        Improving Contract Closeout Timeliness
                 As discussed in the preceding
                 sections of this report, effective
                                                              Effective Internal Controls
                 internal controls help FEMA to      Help ensure that management’s directives are
                 better achieve mission and          carried out. Control activities should be
                 program results, including          effective and efficient in accomplishing the
                 compliance with applicable          agency’s control objectives.
                 laws and regulations. Effective Standards for Internal Control in the Federal
                 internal controls would have        Government (GAO/AIMD-00-21.3.1, November 1999)
                 prompted COs in FEMA’s
                 regional and disaster operations field offices to adhere to the FAR and
                 FEMA guidance governing contract closeouts. These COs did not close out
                 contracts within the timeframes prescribed under FAR Subpart 4.804-1 and
                 the FEMA Disaster Contracting Desk Guide, resulting in unliquidated
                 obligations5 of more than $5 billion that could be used for other needs.

                 COs are required to start the contract closeout process when FEMA has
                 received and paid for all the goods and services it purchased. However,
                 OAM did not monitor contract closeouts or hold COs accountable. Further,
                 missing and incomplete contract files make it difficult to close contracts in a
                 timely manner.

                 OAM officials agreed that the issue of closing contracts and deobligating
                 unused funds was serious, and they have begun to address it. FEMA has
                 hired a contractor to assist in closing contracts whose performance periods
                 have ended. OAM officials told us that they have deobligated $76 million
                 since the contractor began work in 2007. Although this is a sizeable
                 amount, given over $5 billion in unliquidated obligations, much work
                 remains.


                 Recommendations:
                          We recommend that the Director, Office of Acquisition
                          Management:

                          Recommendation #7: Require each contracting officer to close out
                          contract files according to timeframes in the Federal Acquisition
                          Regulation and FEMA policy.


5
 An obligation occurs when FEMA signs a contract; an unliquidated obligation is the amount of a financial
obligation not yet expended (Source: U.S. Department of Agriculture, Departmental Regulation 2230-001,
Reviews of Unliquidated Obligations, August 22, 2006).

                             Internal Controls in the FEMA Disaster Acquisition Process

                                                  Page 14
     Recommendation #8: Accelerate closeout of eligible contracts so
     that funds are more quickly made available for future use.


Management Comments and Contractor Analysis
     FEMA concurred with the recommendations and said that it would provide
     a detailed corrective action plan in its 90-day response. With regard to
     recommendation #7, FEMA said that either the Management Directorate’s
     Acquisition Management Division personnel, or contractor support, will
     close out contract files. With regard to recommendation #8, FEMA said
     that the Acquisition Management Division is working with the Office of
     the Chief Financial Officer to address the close-out of eligible contracts.
     We consider FEMA’s current and planned actions responsive to the
     recommendations.




        Internal Controls in the FEMA Disaster Acquisition Process

                            Page 15
Appendix A
Purpose, Scope, and Methodology


                   DHS OIG contracted with UKW to audit internal controls over the
                   FEMA acquisition process. The audit objective was to determine
                   the extent to which internal controls have improved since the 2005
                   Gulf Coast hurricanes and to identify weaknesses that remain.

                   We conducted this performance audit according to generally
                   accepted government auditing standards (Government Auditing
                   Standards, July 2007 revision). Those standards require that we
                   plan and perform the audit to obtain sufficient, appropriate
                   evidence to provide a reasonable basis for our findings and
                   conclusions based on our audit objectives. We believe that the
                   evidence obtained provides a reasonable basis for our findings and
                   conclusions based on our audit objectives.

                   The audit focused on acquisitions from October 2006 through
                   July 2008. We reviewed FEMA and OAM records and a
                   judgmental sample of contract files selected at headquarters and
                   field offices. We performed work at FEMA headquarters in
                   Washington, DC; at the Brentwood, Tennessee Joint Field Office;
                   the Atlanta, Georgia and Kansas City, Missouri Regional Offices;
                   and the New Orleans and Baton Rouge, Louisiana Transitional
                   Recovery Offices. We held discussions with FEMA officials
                   throughout the audit and discussed audit results with FEMA
                   officials on November 5, 2008.

                   To establish criteria for this audit, we researched U.S. laws and
                   regulations; DHS directives; FEMA policies and guidance; and
                   OMB, GAO, and Office of Federal Procurement Policy (OFPP)
                   requirements and guidelines applicable to internal control and to
                   acquisition activities. We reviewed assessments of the FEMA
                   acquisition process prepared by FEMA contractors and prior
                   reports and congressional testimony by FEMA, DHS OIG, and
                   GAO to identify their findings and recommendations related to
                   FEMA’s acquisition process. We reviewed information, including
                   contract file checklists, contained on the Virtual Acquisition
                   Office, an acquisition knowledge management subscription service
                   that is available to OAM staff.




                     Internal Controls in the FEMA Disaster Acquisition Process

                                         Page 16
Appendix B
Management Comments to the Draft Report




                    Internal Controls in the FEMA Disaster Acquisition Process

                                        Page 17
Appendix C
FEMA Acquisition Management Division Organization Chart




Source: FEMA




                    Internal Controls in the FEMA Disaster Acquisition Process

                                        Page 18
Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      FEMA Audit Liaison (Job Code DC7A01)

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                        Internal Controls in the FEMA Disaster Acquisition Process

                                            Page 19
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
